DISCUSSION DRAFT
                                                             OFFICE OF JOB CORPS



               Office of Inspector General—Office of Audit




                                                             PERFORMANCE AUDIT OF MANAGEMENT AND
                                                             TRAINING CORPORATION JOB CORPS CENTERS




                                                                                       Date:   March 31, 2009
26-A08-001-01-370                                                             Report Number:   26-09-001-01-370
U.S. DEPARTMENT OF LABOR                                  March 2009
OFFICE OF INSPECTOR GENERAL
Office of Audit                                           WHAT OIG FOUND

                                                          MTC can improve its oversight to ensure compliance
BRIEFLY…                                                  with Job Corps requirements for managing safety and
                                                          health programs. Specifically, Charleston could not
Highlights of Report Number: 26-09-001-01-370,            provide documentation to support that all required
Performance Audit of Management and Training              safety and health inspections, observations, and
Corporation Job Corps Centers to the National Director,   committee meetings were conducted during PY 2006.
Office of Job Corps.
                                                          Additionally, MTC can improve its controls to ensure the
WHY READ THE REPORT                                       accurate reporting of student performance for student
                                                          vocational completions and student On-Board Strength
This report discusses safety and health program           for Gary and Charleston. We found 79 of 268 sampled
weaknesses at one Job Corps center operated by            students (29 percent) did not complete the vocation as
Management and Training Corporation (MTC). The            required because one or more required tasks were not
report also discusses inaccurate performance data         completed. We also reviewed a stratified random
reported by this center and another MTC center.           statistical sample of 95 of the 363 students reported on
                                                          leave for seven or more consecutive days prior to
WHY OIG CONDUCTED THE AUDIT                               separation. The attendance and reported leave for 23
                                                          students (24 percent) were not documented as required
The audit objectives were to answer the following         by Job Corps policy. Moreover, 22 students should
questions:                                                have been separated from the center at an earlier date
                                                          and should not have been included in the respective
    1. Did MTC ensure compliance with Job Corps           center’s OBS calculation after that date.
       requirements for managing center safety and
       health programs?                                   Safety and health program weaknesses and inaccurate
                                                          performance reporting impact management decision-
    2. Did MTC ensure compliance with Job Corps           making, incentive payments, and/or option years
       requirements for reporting performance?            awarded to contracted center operators.

    3. Did MTC ensure compliance with Job Corps           WHAT OIG RECOMMENDED
       requirements for managing and reporting
       financial activity?                                We made six recommendations to the National Director,
                                                          Office of Job Corps. Foremost among our
This report is a summary of our audit work at MTC’s       recommendations was to require MTC to (1) improve
headquarters in Centerville, Utah; Gary Job Corps         corporate-level controls and monitoring over all centers
Center (Gary) in San Marcos, Texas; and Charleston        it operates to identify and correct any non-compliance
Job Corps Center (Charleston) in Charleston, West         with Job Corps safety and health program and
Virginia for Program Year (PY) 2006.                      performance requirements, and (2) pay the
                                                          U.S. Department of Labor liquidated damages for any
READ THE FULL REPORT                                      performance overstatements identified in this report or
                                                          by Job Corps during follow-up reviews.
To view the report, including the scope, methodology
and full agency response, go to:                          Job Corps concurred with five of six recommendations.
                                                          This included instructing MTC to improve controls and
http://www.oig.dol.gov/public/reports/oa/2009/26-09-      monitoring over all its centers to ensure compliance
001-01-370.pdf.                                           with Job Corps safety and program requirements. Job
                                                          Corps also stated it would ensure MTC has proper
                                                          mechanisms for controls and oversight in place to
                                                          identify invalid TARs and student OBS. While Job
                                                          Corps and MTC concurred only in part with the TAR
                                                          and OBS deficiencies and liquidated damages identified
                                                          in this report, Job Corps indicated it would review the
                                                          remaining deficiencies to determine whether additional
                                                          liquidated damages should be assessed.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
                                    Report No. 26-09-001-01-370
                                    U.S. Department of Labor – Office of Inspector General




           Management and Training Corporation (MTC) Headquarters
                            Centerville, Utah




Gary Job Corps Center                        Charleston Job Corps Center
  San Marcos, Texas                            Charleston, West Virginia




                                                                       Charleston Job Corps

MTC
Headquarters

                                               Gary Job Corps




                                            Performance Audit Of MTC Job Corps Centers
                                                           Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
                                    Report No. 26-09-001-01-370
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 1

Objective 1 –  Did MTC ensure compliance with Job Corps requirements for
managing center safety programs?............................................................................. 4
         Finding 1 – MTC did not always ensure compliance with Job Corps
            requirements for managing center safety and health programs. ..................... 4

Objective 2 –    Did MTC ensure compliance with Job Corps requirements for
reporting performance?................................................................................................ 7
         Finding 2 – MTC did not always ensure compliance with Job Corps
            requirements for reporting performance. ......................................................... 7

Objective 3 –  Did MTC ensure compliance with Job Corps requirements for
managing and reporting financial activity? .............................................................. 13
         Finding 3 – There were no indications that MTC did not comply with Job
            Corps requirements for managing and reporting financial activity................. 13

Recommendations ...................................................................................................... 13

Appendices
         Appendix A Background ..................................................................................... 19
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 21
         Appendix C Acronyms and Abbreviations .......................................................... 27
         Appendix D Job Corps Response to Draft Report .............................................. 29
         Appendix E MTC Response to Draft Report ....................................................... 37
         Appendix F Acknowledgements ......................................................................... 41




                                                                       Performance Audit Of MTC Job Corps Centers
                                                                                      Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
                                    Report No. 26-09-001-01-370
                                                  U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                        Office of Inspector General
                                                Washington, D.C. 20210




March 31, 2009

                                  Assistant Inspector General’s Report



Esther R. Johnson
National Director
Office of Job Corps
200 Constitution Avenue, N.W
Washington, D.C. 20210


The Office of Inspector General (OIG) conducted a performance audit of the
Management and Training Corporation (MTC). MTC is under contract with the Office of
Job Corps (Job Corps) to operate and partner with 25 Job Corps centers for the U.S.
Department of Labor (DOL). Job Corps requires its center operators to establish
procedures and conduct periodic center audits to ensure integrity, accountability, and
prevention of fraud and program abuse.

The audit objectives were to answer the following questions:

       1. Did MTC ensure compliance with Job Corps requirements for managing center
          safety and health programs?

       2. Did MTC ensure compliance with Job Corps requirements for reporting
          performance?

       3. Did MTC ensure compliance with Job Corps requirements for managing and
          reporting financial activity?

This report includes the results of our audit work at MTC’s headquarters in Centerville,
Utah; Gary Job Corps Center (Gary) in San Marcos, Texas; and Charleston Job Corps
Center (Charleston) in Charleston, West Virginia for Program Year (PY) 2006. 1

Results In Brief

MTC can improve its oversight to ensure compliance with Job Corps requirements for
managing safety and health programs. Specifically, Charleston could not provide
documentation to support that all required safety and health inspections, observations,
and committee meetings were conducted during PY 2006. This occurred, in part,

1
    July 1, 2006, through June 30, 2007.

                                                            Performance Audit Of MTC Job Corps Centers
                                                    1                      Report No. 26-09-001-01-370
                                                         U.S. Department of Labor – Office of Inspector General


because MTC did not ensure Charleston established Standard Operating Procedures
(SOPs) for conducting safety and health inspections and committee meetings; and did
not provide adequate monitoring to ensure these required safety program activities, as
well as safety and health observations, were conducted at the center. Job Corps found
similar deficiencies during its May 2007 annual safety and health review at Charleston,
resulting in failing scores for safety and health inspections and committee meetings.
While Job Corps’ September 2008 annual safety and health review showed that
Charleston took certain corrective actions and began maintaining documentation to
support it conducted these safety program activities, Job Corps also identified unsafe
conditions, indicating the activities were not performed effectively and additional
improvements to the center’s safety and health program were needed. MTC concurred
with the noted deficiencies and the importance of controls, and pointed to a shortage of
responsible staff at the center as contributing factors. Our testing did not identify any
reportable concerns related to Gary’s compliance with Job Corps requirements for
performing and documenting its required safety and health inspections, observations,
and committee meetings during PY 2006.

Additionally, MTC can improve its controls to ensure the accurate reporting of student
performance for two of the three areas reviewed for the Gary and Charleston centers in
PY 2006 – student vocational completions and student On-Board Strength (OBS), a
measure of a center’s ability to operate at full capacity. As a result, student vocational
completions and OBS were overstated at both Gary and Charleston for PY 2006.
During our testing, there were no indications that MTC did not comply with Job Corps
reporting requirements for the third area reviewed–General Educational Development
(GED)/high school diploma attainment. Student vocational completions and OBS were
overstated for Gary and Charleston for PY 2006. In a sample of 268 of the 1,580
student vocational completions reported for both centers, 2 there were 79 students
(29 percent) who did not complete the vocation as required because one or more
required tasks were not completed. 3 In a stratified random statistical sample of 95 of
the 363 students reported on leave for seven or more consecutive days prior to
separation, the attendance and reported leave for 23 (24 percent) students were not
documented as required by Job Corps policy. Moreover, 22 students should have been
separated from the center at an earlier date and should not have been included in the
respective center’s OBS calculation after that date.

MTC agreed certain training records were not completed and students were not
separated as required. However, MTC officials stated that controls were operating
effectively and the vast majority of issues found at Gary and Charleston were a
combination of isolated instances and unavoidable human error. We disagree with
MTC’s assessment, and believe the high exception rates indicate a systemic problem.
It is MTC’s corporate responsibility to ensure the reliability of its student performance
data. MTC had implemented corporate controls to address inaccurate performance



2
    Sample of 268 combines the random statistical and judgmental samples of 120 and 148, respectively.
3
    Results are also a combination of the random statistical and judgmental samples noted above.

                                                                  Performance Audit Of MTC Job Corps Centers
                                                           2                     Report No. 26-09-001-01-370
                                                      U.S. Department of Labor – Office of Inspector General


reporting found during a 2005 OIG audit of an MTC-operated center. 4 These corporate
controls included providing data integrity training to its center and corporate staff;
conducting annual corporate audits; and requiring management and key staff to conduct
regular audits of academic, career technical training, and separated students’ records.
These controls were not effective, and the continued lack of emphasis on ensuring
compliance with Job Corps requirements resulted in the overstatement of center
performance in reports to Job Corps for PY 2006.

Safety and health program weaknesses and inaccurate performance reporting impact
management decision-making, incentive payments, and/or option years awarded to
contracted center operators. 5

During our testing, there were no indications that MTC did not comply with Job Corps
requirements for managing and reporting financial activity. We reviewed non-personnel
(e.g., credit card use, travel expenses, purchasing) expenses, personnel expenses
(e.g., payroll), and compliance requirements for reporting reimbursable expenses to
DOL at Gary and Charleston for PY 2006. The details about the specific areas
reviewed are contained in Appendix B.

We made six recommendations to the National Director, Office of Job Corps. Foremost
among our recommendations was to require MTC to (1) improve corporate-level
controls and monitoring over all centers to identify and correct any non-compliance with
Job Corps safety and health program and performance requirements, and (2) pay the
DOL liquidated damages for any performance overstatements identified in this report or
by Job Corps during follow-up reviews.

Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a sufficient basis for our findings and conclusions based on our audit
objectives. Our audit scope, methodology and criteria are detailed in Appendix B.




4
  Kittrell Job Corps Center: Manipulation of Student Attendance and Training Records, Report No. 09-05-001-03-370,
March 30, 2005.
5
  Safety and health program weaknesses do not impact incentive payments.

                                                                Performance Audit Of MTC Job Corps Centers
                                                        3                      Report No. 26-09-001-01-370
                                           U.S. Department of Labor – Office of Inspector General


Results and Findings

Objective 1 – Did MTC ensure compliance with Job Corps requirements for
              managing center safety programs?

Finding 1 –    MTC did not always ensure compliance with Job Corps
               requirements for managing center safety and health programs.

MTC can improve its oversight to ensure compliance with Job Corps requirements for
managing safety and health programs. Specifically, Charleston could not provide
documentation to support that all required safety and health inspections, observations,
and committee meetings were conducted during PY 2006. This occurred, in part,
because MTC did not ensure Charleston established SOPs for conducting safety and
health inspections, observations, and committee meetings; and did not provide
adequate monitoring to ensure these required safety program activities were conducted
at the center. As a result, there was an increased likelihood that serious safety and
health hazards could have existed in the training, living, and working environment that
were not identified and corrected at the earliest opportunity.

Job Corps found similar deficiencies during its May 2007 annual safety and health
review at Charleston, resulting in failing scores for safety and health inspections and
committee meetings. While Job Corps’ September 2008 annual safety and health
review at Charleston showed the center took certain corrective actions and began
maintaining the documentation to support it conducted the required inspection,
observation and committee meeting activities, Job Corps also identified unsafe
conditions, indicating the activities were not performed effectively and additional
improvements to the center’s safety and health program were needed. The
identification of these unsafe conditions underscore the importance of conducting
timely, thorough inspections, and the need for continuous compliance with Job Corps
safety and health program requirements.

Our testing did not identify any reportable concerns related to Gary’s compliance with
Job Corps requirements for performing and documenting its required safety and health
inspections, observations, and committee meetings during PY 2006.

Charleston Was Not Always In Compliance with Inspection and Observation
Requirements

Job Corps’ Policy and Requirements Handbook (PRH) requires centers to perform the
following:

      Conduct weekly safety inspections of food handling and recreation areas;

      Conduct monthly safety and occupational health inspections of dormitories, child
       development centers, health service areas, administrative offices, and other
       occupied buildings;


                                                   Performance Audit Of MTC Job Corps Centers
                                            4                     Report No. 26-09-001-01-370
                                           U.S. Department of Labor – Office of Inspector General




      Conduct daily observations of its dormitories;

      Correct identified deficiencies promptly; and

      Document and maintain records of inspections and actions taken to correct
       deficiencies.

MTC could not provide the required documentation to support that (1) any weekly or
monthly safety and health inspections were performed during PY 2006, and (2) daily
observations of its 4 dormitories were performed for 14, or 29 percent, of the 48 months
reviewed (12 months of observations X 4 dormitories) at Charleston. As such, there
was an increased likelihood that serious safety and health hazards could have existed
in the training, living, and working environment that were not identified and corrected at
the earliest opportunity. These conditions occurred, in part, because MTC had not
established SOPs for conducting the inspections at Charleston. SOPs established for
Gary defined the roles and responsibilities for performing the inspections, and our
review at Gary showed that required inspections for PY 2006 were documented. While
Job Corps does not require SOPs for conducting inspections, similar SOPs at
Charleston would have provided center staff with the guidance needed to comply with
the Job Corps requirements. Additionally, MTC corporate and center management did
not provide adequate monitoring and supervision to ensure the inspections and
observations were performed and documented as required.

MTC agreed that inspections and observations were not documented at Charleston as
required. However, MTC told us that all the required weekly and monthly inspections
had been performed at the center during PY 2006. They said staff vacancies, due to
extended illness and active military duty, hindered Charleston’s efforts to document the
safety and health inspections. MTC agreed with the importance for Charleston to have
effective controls in place to ensure all of the daily observations were performed and
documented.

Charleston Was Not Always In Compliance with Committee Meeting Requirements

The PRH required centers to establish a Safety and Health Committee to:

       Review reported accidents, injuries, and illnesses;

       Consider the adequacy of actions to prevent recurrence of such accidents,
        injuries, or illnesses;

       Plan, promote, and implement DOL and Job Corps safety and occupational
        health programs; and

       Meet monthly and maintain records of the minutes for at least three years.



                                                   Performance Audit Of MTC Job Corps Centers
                                            5                     Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


MTC was not able to provide documentation that monthly Safety and Health Committee
meetings were consistently conducted at Charleston during PY 2006. The center did
not maintain the required Safety and Health Committee meeting minutes for 8 of the 12
months. These conditions occurred, in part, because MTC had not established SOPs
for conducting and documenting the meetings at Charleston. While Job Corps does not
require SOPs for committee meetings, SOPs at Charleston would have provided center
staff with the guidance needed to comply with the Job Corps requirements.
Additionally, MTC corporate and center management did not provide adequate
monitoring to ensure the committee meeting were held and documented as required.
MTC told us that the required meetings were held; but not always documented and
maintained. Regular Safety and Health Committee meetings, along with consistent
inspections and observations, will increase the center’s ability to identify and correct
safety and health concerns at the earliest opportunity. Without adequate documentation
of these activities, MTC cannot provide adequate assurance that its centers’ safety and
health programs are working effectively to protect Job Corps students. Safety and
health program weaknesses also impact Job Corps and MTC management decision-
making.

MTC Took Corrective Actions to Address Certain Safety and Health Program
Weaknesses

Similar deficiencies were identified at Charleston during an annual safety and health
review by the Job Corps National Office (National Office) in May 2007 and during
annual assessments by MTC in June 2007 and the Job Corps Regional Office
(Regional Office) in August 2007. The National Office’s May 2007 review resulted in
failing scores for safety and health inspections and committee meetings, noting that
limited or no records for required weekly and monthly inspections and monthly meetings
were available for review. MTC’s June 2007 and the Regional Office’s August 2007
reviews also noted these inspections and meetings were not being completed as
required. MTC told us that in response to the deficiencies found during these reviews
and our audit, it initiated a number of corrective actions, which included personnel
changes and instituting an internal monitoring system at the center to ensure required
safety activities were conducted. This included center management’s regular review of
inspection and observation reports and Safety and Health Committee meeting minutes;
and filling the staff vacancies impacting Charleston’s safety program. Subsequent to
our site visit at Charleston, the National Office conducted its 2008 annual safety and
health review at Charleston on September 8-9, 2008. This review showed the center
began maintaining the documentation to support it conducted the required inspections,
observations, and committee meetings.

Additional Safety and Health Program Improvements Needed at Charleston

We conducted walkthroughs at each of Charleston’s nine buildings in June 2008, which
were comprised of (1) administration, (2) education and training, (3) career and
technical training, (4) cafeteria, (5) recreation, (6) maintenance and warehouse, (7)
reception center and security office, (8) female dorm, and (9) male dorm. We did not


                                                  Performance Audit Of MTC Job Corps Centers
                                           6                     Report No. 26-09-001-01-370
                                            U.S. Department of Labor – Office of Inspector General


observe any unsafe or unhealthy conditions. However, the National Office’s September
2008 review at Charleston, which included walkthroughs of the center’s administration,
education and training, cafeteria, recreation, and maintenance and warehouse
buildings, identified several unsafe conditions. The report included the following
examples:

      Emergency exit doors in the cafeteria kitchen were locked shut. In case of
       emergency, it is essential that all emergency exit doors are clearly marked,
       accessible, and unlocked. Job Corps indicated this hazard could lead to death or
       permanent total disability.

      A receptacle cover plate was missing from a light switch in the recreational
       facility. Job Corps indicated this electrical hazard could likely result in death or
       permanent total disability.

      Temporary wiring was used to power a permanent light fixture in the
       maintenance shop. Job Corps indicated there was a strong possibility this
       hazard could result in permanent or partial disability. Unprotected ceiling light
       fixtures were also noted in the maintenance shop.

      Flammable liquids were improperly stored at the center. Flammable liquids
       should be stored in a flammable liquids storage cabinet when not in use.
       Improperly stored flammable liquids are a fire hazard. Job Corps indicated there
       was a strong possibility this hazard could result in permanent or partial disability.

While MTC abated these concerns at Charleston with Job Corps concurrence, the
unsafe conditions Job Corps identified underscore the importance of conducting timely,
thorough inspections, and the need for continuous compliance with Job Corps safety
and health program requirements. Although Charleston received an overall acceptable
rating of 5.6 out of 9 (with serious concerns), the rating indicates Charleston met the
minimal requirements of a safety program and additional improvements were needed.

It is critical at each MTC center to ensure students and staff are protected through
timely identification and correction of unsafe or unhealthy conditions. Conducting,
documenting and reviewing safety and health inspections are essential tools for
management in the maintenance of safe and healthy facilities.


Objective 2 – Did MTC ensure compliance with Job Corps requirements for
              reporting performance?

Finding 2 –     MTC did not always ensure compliance with Job Corps
                requirements for reporting performance.

MTC can improve its centers’ performance reporting to Job Corps for two of the three
areas reviewed for Gary and Charleston – student vocational completions and student


                                                    Performance Audit Of MTC Job Corps Centers
                                              7                    Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


OBS, a measure of a center’s ability to operate at full capacity. Specifically, student
vocational completions and OBS were overstated at both Gary and Charleston for PY
2006. These conditions occurred because MTC management did not place adequate
emphasis on ensuring compliance with Job Corps requirements for reporting
performance. Inaccurate performance reporting impacts management decision-making,
incentive payments and option years awarded to contracted center operators. As a
result of this overstatement, MTC owes DOL liquidated damages of $59,250 for invalid
vocational completion credits and $3,943 for improperly extending enrollment and/or
invalid leave days that could be assessed against MTC by Job Corps. During our
testing, there were no indications that MTC did not comply with Job Corps reporting
requirements for the third area we reviewed – GED/high school diploma attainment.

Vocational Completions Overstated at Gary and Charleston

Gary and Charleston reported students with incomplete Training Achievement Records
(TARs) as vocational completers in their reported performance for PY 2006. Job Corps
PRH required centers to (1) document that students are proficient at all tasks listed on
the TARs; (2) ensure student progress is documented on TARs as progress occurs; and
(3) obtain approval for changes to tasks listed on the TARs from the Job Corps National
Director.

We reviewed a random statistical sample of 120 out of the 1,580 students reported by
both centers as vocational completers during PY 2006 and a judgmental selection of
148 students from the same population of 1,580 reported vocational completers. Our
review showed 55, or 46 percent, of the 120 TARs tested were not consistent with PRH
requirements because one or more tasks were not completed or annotated correctly.
There were similar deficiencies for 24, or 16 percent, of the 148 TARs reviewed in our
judgmental sample. The TAR deficiencies found included tasks not documented as
having been completed (e.g., lacked required instructor/student sign-offs, completion
dates, proficient performance ratings); completion dates for tasks coincided with
holidays, weekends, student leave dates, and dates not-in-trade; tasks were excluded
without proper approval; and too many tasks were completed in one day.

Examples of TAR deficiencies found:

   At Gary and Charleston, four TARs were reported as valid even though an
    unrealistic number of tasks were noted as completed on the same date. This
    included a plasterer TAR (Gary) having 61 tasks completed on one day and a
    maintenance helper TAR (Charleston) having completed 66 tasks on one day.
    The PRH requires centers to ensure student progress is documented on TARs as
    progress occurs. As such, we consider these four TARs invalid. MTC and both
    centers agreed with these invalid TARs determinations.

   At Charleston, one TAR was improperly reported as valid even though 85 tasks were
    completed prior to the student’s vocation start date. MTC and Charleston agreed.



                                                  Performance Audit Of MTC Job Corps Centers
                                           8                     Report No. 26-09-001-01-370
                                                    U.S. Department of Labor – Office of Inspector General


   At Charleston, four Certified Nursing Assistant (CNA) TARs were improperly
    reported as valid even though tasks were not documented as completed. This
    occurred because the incomplete cardiopulmonary resuscitation (CPR) and first-aid
    tasks were not required by the State of West Virginia to be a can, and MTC
    mistakenly believed that the CPR and First Aid tasks were no longer required of
    students in the Job Corps program at Charleston. We consider these four CNA
    TARs to be invalid because MTC did not obtain approval from the Job Corps
    National Director to exclude the CPR and First Aid tasks listed on the TAR.

    The PRH required centers to obtain approval from the Job Corps National Director
    for changes listed on the TARs. MTC did not obtain such an approval or waiver. In
    response to similar incomplete CNA TAR concerns reported in a September 2008
    OIG report for another Job Corps center operator, the Job Corps National Director
    emphasized this requirement and the importance for training providers to ensure the
    skills learned by Job Corps students are applicable to the requirements of the states
    where students receive their certifications, as well as other states. 6 In the
    September 2008 report, Job Corps regional management also indicated that training
    tasks should not be limited by state certification requirements because students do
    not always graduate and work in the state where their Job Corps center is located.

While MTC had internal controls in place at both centers to ensure data reliability, the
controls were not always effective. These controls included periodic corporate audits of
center performance data and regular TAR audits conducted by center management and
key staff. For example, Gary established a process for the instructor and manager to
audit all TARs for completeness and accuracy and document the results on a TAR Audit
Sheet. However, this process did not detect most of the TAR deficiencies we identified
during our audit. MTC stated that due to the many filing systems Job Corps employs
there will undoubtedly always be some measure of human error. MTC acknowledged
that the incomplete TARs we identified were not acceptable, but also believed that
many of them were not invalid because of the types of deficiencies identified (e.g., one
or two missing sign-offs and/or performance ratings). Of the 79 (55 + 24) students we
identified as having incomplete TARs, MTC agreed 18 were invalid. MTC also noted
that no additional resources had been provided to address the increased time
commitments required to complete the new TAR forms, which include as many as 250
line items and more than 1,000 annotations.

The PRH stipulated liquidated damages of $750 be assessed for each improper
vocational completion. As such, MTC owes $59,250 ($41,250 + $18,000) for the 79
students we identified as having incomplete TARs. Some TARs had several
deficiencies. The invalid TARs and number of deficiencies we found, as well as our
calculation of liquidated damages, by center are summarized in Table 1 below:




6
 Career Systems Development Corporation: Controls Over Center Operations Were Not Effective, Report No. 26-08-
001-01-370, September 2008.

                                                             Performance Audit Of MTC Job Corps Centers
                                                      9                     Report No. 26-09-001-01-370
                                                       U.S. Department of Labor – Office of Inspector General


Table 1: 79 TARs Were Invalid

Statistical Sample

Number of                 Number of Students with                             Liquidated
Incomplete                   Incomplete TARs                                   Damages
Tasks                  Gary     Charleston    Totals                        (Totals x $750)
1-2                     14          14           28                           $ 21,000
3-4                     4            5            9                           $    6,750
5-10                    3            2            5                           $    3,750
11 or more              4            9           13                            $ 9,750
Totals                  25          30           55                           $ 41,250


Judgmental Sample

Number of                 Number of Students with                             Liquidated
Incomplete                   Incomplete TARs                                   Damages
Tasks                  Gary     Charleston    Totals                        (Totals x $750)
1-2                     2            2            4                           $    3,000
3-4                     4            1            5                           $    3,750
5-10                    6            1            7                           $    5,250
11 or more              7            1            8                           $    6,000
Totals                  19           5           24                           $ 18,000

Our liquidated damages calculation of $41,250 was based on the 55 students with
incomplete TARs from our statistical sample of 120 students. Projecting these
statistical sample results to the 1,580 vocational completions reported for PY 2006, we
estimate that at least 525, or 33.2 percent, did not complete the vocation as required
and at least $393,750 may be owed to DOL for Gary and Charleston students with
incomplete TARs. 7

OBS Overstated at Gary and Charleston

Gary and Charleston overstated student OBS because students were not separated as
required. The PRH established criteria for student attendance and leave and required
students to be separated from the program if unauthorized leave exceeds certain
standards. Student attendance was recorded in the Job Corps Center Information
System (CIS), which calculated center OBS. Job Corps defined OBS as “an efficiency
measure that depicts the extent to which centers operate at full capacity.” The PRH
also requires center operators to separate students from the program if students were
absent from training in excess of certain standards.


7
  Projection based on a 95 percent confidence level, combined sampling error 5.16 (+/-) percent, and combined lower
limit of 33.24 percent.

                                                                Performance Audit Of MTC Job Corps Centers
                                                        10                     Report No. 26-09-001-01-370
                                                      U.S. Department of Labor – Office of Inspector General


We reviewed a stratified random statistical sample of 95 out of 363 students with
reported leave of seven or more consecutive days prior to separation during PY 2006
for both centers. Of the 95 student files reviewed, the attendance and reported leave
for 23 (24 percent) students were not documented as required by the PRH. Moreover,
22 should have separated at an earlier date and should not have been included in the
respective center’s OBS calculation after that date. 8 We determined that both centers
retained the 22 students 165 days beyond their required termination dates, in violation
of the PRH, which overstated OBS. Of the 22, MTC agreed that 19 should have
separated at an earlier date.

The PRH requires the assessment of liquidated damages for failure to comply with
regulations for separating students. Excessive leave day costs were calculated using
15 percent of the refundable cost per student per day, which was $57.60 for Gary and
$69.63 for Charleston. As a result, excessive leave day costs (liquidated damages)
amounted to $8.64 ($57.60 x 15 percent) and $10.44 ($69.63 x 15 percent) for Gary
and Charleston, respectively. The PRH violations and our liquidated damages
calculations for the 22 students with separation violations we identified are summarized
in Table 2 below:

Table 2: 22 Students Were Not Separated as Required

                                                 Number of Students                  Liquidated Damages
                                                  (Days in Violation)                 (Number of Days x
                                                                                     Excessive Leave Day
                                                                                             Cost)
                                                                                      Gary      Charleston
PRH Violation                                     Gary          Charleston
                                                                                     ($8.64)       ($10.44)
Behavior Review Panel (BRP) or
Fact Finding Board (FFB) did not
                                              2 (23 days)        8 (57 days)         $198.72           $595.08
render decision within required
timeframes
Student granted administrative
leave without pay for more than
                                                     0           1 (17 days)             --            $177.48
30 days in a year without
Regional Office approval
Student not separated
immediately after decision by                    11 (68
                                                                       0             $587.52                  --
BRP, FFB, and/or Center                          days)
Director
                                                   13                 9
Totals                                                                               $786.24            $772.56
                                               (91 days)          (74 days)


8
  One of the 23 student exceptions involved unexcused absences and was not a separation violation. As such,
liquidated damages were not assessed.

                                                               Performance Audit Of MTC Job Corps Centers
                                                         11                   Report No. 26-09-001-01-370
                                                       U.S. Department of Labor – Office of Inspector General


Our liquidated damages calculation was based on the 22 students with separation
violations in our statistical sample of 95 students. The total liquidated damages for both
centers amounted to $1,558.80 ($786.24 + $772.56). Projecting these liquidated
damages to the 363 students with reported leave of seven or more consecutive days
prior to separation during PY 2006 for both centers, we estimate that at least $3,188
may be owed to DOL for Gary and Charleston students not separated as required by
the PRH. 9

In addition to our stratified random statistical sample, we reviewed a judgmental
selection of 564 students reported as absent without leave (AWOL) by Gary for PY
2006. The PRH permitted students to be AWOL for no more than 6 consecutive training
days, or 12 training days within a 180-day period. Our review found two students that
exceeded the allowed number of AWOLs and resulted in 276 days of overstated length
of stay. MTC concurred. As a result, MTC owes $2,384.64 ($8.64 x 276) in liquidated
damages to DOL for not separating these students as required.

Controls Over Performance Reporting Need Improvement

Inaccurate reporting of center performance impacts Job Corps and MTC decision-
making. Job Corps and MTC are also impacted financially because reimbursed
operating expenses, bonus and incentive payments, and option years awarded to
contracted center operators are based on reported performance. As such, MTC needs
to improve its controls over performance information. The overstatements noted in this
report occurred because MTC had not established effective controls to ensure center
compliance with Job Corps requirements for reporting performance.

MTC implemented corporate controls to address inaccurate performance reporting
found during a 2005 OIG audit of an MTC-operated center. These corporate controls
included the following:

       Providing data integrity training to its center employees and all corporate staff
        responsible for record keeping;

       Conducting annual corporate audits of targeted student files at each of its
        centers; and

       Requiring management and key staff to conduct regular compliance and quality
        audits of academic, career technical training, and separated students’ records.

MTC told us its controls were operating effectively and that the vast majority of issues
found at Charleston and Gary were a combination of isolated instances and
unavoidable human error. We disagree with MTC’s assessment, and believe the high
number of incomplete vocational completions and separation violations noted is
systemic. It is MTC’s corporate responsibility to ensure student performance data

9
  Projection based on a 95 percent confidence level, combined sampling error 3.74 (+/-) percent, and combined lower
limit of 12.5 percent.

                                                                Performance Audit Of MTC Job Corps Centers
                                                        12                     Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


reliability. MTC’s controls to ensure compliance with Job Corps requirements for
reporting performance were not always effective and the lack of management emphasis
on ensuring compliance resulted in the continued overstatement of student performance
in reports to Job Corps for PY 2006.

Objective 3 – Did MTC ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

Finding 3 –    There were no indications that MTC did not comply with Job Corps
               requirements for managing and reporting financial activity.

During our testing, there were no indications that MTC did not comply with Job Corps
requirements for managing and reporting financial activity. We reviewed non-personnel
(e.g., credit card use, travel expenses, purchasing) expenses, personnel expenses (e.g.
payroll), and compliance requirements for reporting reimbursable expenses to DOL at
Gary and Charleston for PY 2006. The details about the specific areas reviewed are
contained in Appendix B.

Recommendations

We recommend that the National Director, Office of Job Corps, require MTC to:

   1. Improve controls and monitoring over all centers to identify and correct any non-
      compliance with Job Corps safety and health program requirements and
      periodically test those controls to determine effectiveness. The controls and
      monitoring should ensure safety and health inspections and observations are
      thorough and result in timely identification and correction of unsafe and unhealthy
      conditions.

   2. Periodically validate whether the safety and health program at Charleston is
      managed in accordance with Job Corps requirements.

   3. Improve the effectiveness of training and supervisory oversight to staff
      responsible for complying with Job Corps performance reporting requirements.

   4. Improve the effectiveness of data integrity audits conducted at each center to
      identify any systemic non-compliance with Job Corps performance reporting
      requirements. These audits should continue to assess PRH compliance with all
      elements of performance reporting including student achievement, OBS and
      student attendance.

   5. Implement corrective action plans when PRH non-compliance is identified during
      data integrity audits. The corrective action should include providing Job Corps
      with any adjustments to previously reported performance.




                                                  Performance Audit Of MTC Job Corps Centers
                                           13                    Report No. 26-09-001-01-370
                                             U.S. Department of Labor – Office of Inspector General


Also, we recommend that the National Director:

   6. Determine the extent of any overstated OBS and vocational completions at each
      of MTC’s centers and require MTC to pay the DOL liquidated damages for the
      overstatements. This includes MTC paying the liquidated damages identified in
      this report - $60,000 for invalid vocational completions and $3,943 for not
      separating students as required by Job Corps requirements.


Job Corps Response

In response to the draft report, Job Corps concurred with Finding 1 and
Recommendations 1-2. Job Corps stated it will instruct MTC to improve its controls and
monitoring over all its centers to ensure compliance with Job Corps safety and health
program requirements. Job Corps will also periodically validate Charleston’s compliance
with these requirements.

Job Corps concurred in part with our audit results for Finding 2. Of the 79 students we
identified as having incomplete TARs, Job Corps agreed with MTC that 18 TARs were
invalid. Of the 22 students we identified as having OBS issues, Job Corps also agreed
with MTC that 19 should have separated at an earlier date. Job Corps stated it would
review the remaining TAR and OBS deficiencies and determine whether additional
liquidated damages should be assessed. Job Corps noted that the PRH provides
Contracting Officers with the latitude to “exercise discretion when assessing liquidated
damages when such action may not be appropriate where an error or omission
occurred or when the action was careless or a result of an innocent mistake.” Job
Corps believed that many of the invalid TARs identified were the result of innocent
mistakes and human error. Job Corps stated it will ensure MTC has proper
mechanisms for controls and oversight in place to identify invalid TARs and student
OBS. In this regard, Job Corps concurred with Recommendations 3-5 and, in part, with
Recommendation 6.

Job Corps concurred with Finding 3.

See Appendix D for Job Corps’ complete response to our draft report.

MTC Response

While MTC did not specifically concur with Finding 1 in its response to the draft report,
MTC stated it had implemented the following corrective actions: (1) instructed
Charleston’s top leadership to develop and implement an internal monitoring system to
ensure required safety activities were conducted in accordance with the PRH;
(2) assigned the center safety officer from Gary to Charleston to provide on-sight
technical assistance; (3) initiated corrective actions with staff; (4) hired a private safety
consultant to conduct an in-depth review of Charleston’s safety program; and



                                                     Performance Audit Of MTC Job Corps Centers
                                              14                    Report No. 26-09-001-01-370
                                           U.S. Department of Labor – Office of Inspector General


(5) reviewed all center corrective actions for the concerns identified in the DOL annual
inspection and monitored these actions for completion.

MTC agreed in part with Finding 2. MTC believed that all of the skills were completed
for the majority of the incomplete TARs identified. MTC indicated the issue was that
some of the annotations required for each skill were not completed properly (i.e., a
student or staff initial was missing or one or two dates indicated completion on non-
training days). As such, MTC only agreed with 18 of the 79 TARs in question. MTC
calculated liquidated damages in the amount of $13,500. Regarding AWOL and student
leaves, MTC agreed that 2 AWOL students were not separated in a timely fashion and
19 of 22 students should have separated at an earlier date. MTC calculated liquidated
damages in the amount of $3,694 ($2,385 + $1,309) based on these results.

MTC concurred with Finding 3.

See Appendix E for MTC’s complete response to our draft report.


OIG Conclusion

We consider Job Corps’ corrective actions responsive to our findings and
Recommendations 1-5. While many of the TAR deficiencies identified may have
resulted from innocent mistakes and human error as Job Corps and MTC indicated in
response to Recommendation 6, the TARs did not provide sufficient evidence to show
the students were proficient at all the required tasks. Training deficiencies may impact
the students’ ability to obtain and maintain employment. As such, we continue to
recommend that MTC pay the liquidated damages we identified and improve its internal
controls to ensure all information used to record, track, and validate student proficiency
at all tasks listed on the TARs are documented as required by Job Corps.




Elliot P. Lewis




                                                   Performance Audit Of MTC Job Corps Centers
                                            15                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
              16                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




Appendices




                     Performance Audit Of MTC Job Corps Centers
              17                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
              18                    Report No. 26-09-001-01-370
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

Job Corps is a national program, administered by the U.S. Department of Labor (DOL),
Office of Job Corps, which offers a comprehensive array of career development
services to at-promise young women and men, ages 16 through 24, to prepare them for
successful careers. Job Corps was established by the Economic Opportunity Act of
1964 and is currently authorized under the Workforce Investment Act of 1998, Title I-C.

Job Corps provides education, training and support services to students at center
campuses located throughout the United States and Puerto Rico. Job Corps centers
are operated for DOL by private companies through competitive contracting processes,
and by other Federal Agencies through inter-agency agreements. Job Corps centers
are required to provide a training, living, and working environment that ensures the
safety and occupational health of students and staff.

Within the Job Corps system, the performance of Job Corps center operators is
measured against extensive and integrated performance measurement systems. These
systems reflect and support the goals of the program while providing flexibility toward
accomplishing these goals.

Contractors are measured based on performance measures which include students’
early program retention and achievement of academic and vocational credentials.
Performance against these measures weighs heavily in the contract award process.
Center performance results link contractor performance to program funding by
rewarding good performance and penalizing poor performance.

In addition to performance measures for student outcomes, Job Corps also tracks
quality and compliance measures related to center operations. These measures
include student On-Board Strength (OBS), an efficiency measure that depicts the extent
to which the center is operating at full capacity. The national goal for OBS is 100
percent.

The Management and Training Corporation’s (MTC) headquarters is located in
Centerville, Utah. MTC operates and partners with 25 Job Corps centers under contract
with DOL, Office of Job Corps (Job Corps). The two centers we visited—Gary Job
Corps Center (Gary) and Charleston Job Corps Center (Charleston)—had annual
expenditures of approximately $37.8 million and $10.2 million, respectively. Both
centers serve residential and non-residential students. Gary and Charleston have
training capacities (authorized On-Board Strength) of 1,900 and 400 students,
respectively. MTC’s annual expenditures for the Job Corps program totaled
approximately $283 million.




                                                 Performance Audit Of MTC Job Corps Centers
                                          19                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
              20                    Report No. 26-09-001-01-370
                                            U.S. Department of Labor – Office of Inspector General


                                                                                   Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

       1. Did MTC ensure compliance with Job Corps requirements for managing center
          safety and health programs?

       2. Did MTC ensure compliance with Job Corps requirements for reporting
          performance?

       3. Did MTC ensure compliance with Job Corps requirements for managing and
          reporting financial activity?

Scope

This report reflects the audit work conducted at MTC headquarters in Centerville, Utah
and at two MTC-operated Job Corps centers—Gary in San Marcos, Texas and
Charleston in Charleston, West Virginia. Except where noted, we reviewed
performance data, center safety, and financial data for Program Year (PY) 2006. 10

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an
understanding of MTC’s processes, policies and procedures for managing center safety
and reporting financial and performance information to Job Corps. We interviewed MTC
corporate officials at MTC headquarters in Centerville, Utah, and conducted interviews
with various MTC officials at field sites.

At corporate headquarters, we performed walkthroughs of MTC’s corporate processes
and identified and evaluated MTC internal controls over center safety and financial and
performance reporting. We assessed risks related to financial and performance
misstatement and evaluated MTC’s overall control environment.



10
     July 1, 2006, through June 30, 2007.

                                                    Performance Audit Of MTC Job Corps Centers
                                             21                    Report No. 26-09-001-01-370
                                            U.S. Department of Labor – Office of Inspector General


We selected two MTC center locations for detailed testing of center safety and financial
and performance data – Gary and Charleston. We selected the centers based on a risk
assessment that considered a number of variables, including size of operations; prior
audit findings; and OIG and Job Corps management concerns.

We assessed the reliability of related data for the period July 1, 2006, through
June 30, 2007, and determined that the data was sufficiently reliable to accomplish our
audit objectives. We used a combination of statistical and judgmental sampling to
select the items tested at these centers. Judgmentally selected items, which cannot be
projected to the intended population(s) were chosen based on a risk assessment that
considered a number of factors including known deficiencies (e.g., related audit
concerns identified in prior OIG, DOL, MTC, and consultant reports), inquiries of and
information provided by Job Corps, MTC and center personnel; the nature of certain
transactions (e.g., high dollar value, susceptibility to theft or manipulation); and results
of preliminary analytical procedures.

Our methodology for each center is described as follows:

Gary

Center Safety and Health

To gain a better understanding of the center’s safety and health program, we
interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, performed walkthroughs, and conducted a physical review of the center’s
facilities. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, Safety and Occupational Health
Committee meeting minutes, and a judgmental selection of 22 weekly and monthly
safety and health inspection reports from a population of 5,632 inspections for 110
center buildings to determine whether the center effectively identified and corrected
safety and health deficiencies.

In addition, we reviewed a judgmental selection of 10 students from a population of
4,487 students served to determine if the center met Job Corps’ Policy and
Requirements Handbook (PRH) drug testing requirements for initial testing, follow-up
drug testing, and zero tolerance separation after the number of allowable positive tests
has been exceeded. We also evaluated the center’s process for appropriate and timely
action for students involved in disciplinary incidents. To accomplish this, we reviewed a
judgmental selection of 6 students from a population of 4,487 students served from
Gary’s Incident History Report and traced their separation to the center’s Separation
Analysis Report. The six students were tested to determine if the level of violation
reported on the Incident History Report was associated with Job Corps’ disciplinary
action reported on the Separation Analysis report.




                                                    Performance Audit Of MTC Job Corps Centers
                                             22                    Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


Performance Reporting

We interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, reviewed prior audit and consultant reports, and performed walkthroughs to
gain a better understanding of the center’s system for collecting, recording, processing,
and reporting performance data. We used a combination of statistical and non-
statistical sampling to examine performance reporting.

To determine if reported vocational completers had supporting Training Achievement
Record (TAR) documentation in compliance with PRH requirements, we reviewed a
random statistical sample of 60 out of the 1,269 students reported by Gary as vocational
completers during PY 2006 and a judgmental selection of 133 students from the same
population of 1,269 reported vocational completers. We reviewed each student TAR for
a number of attributes, including tasks not documented as having been completed (e.g.,
lacked required instructor/student sign-offs, completion dates, proficient performance
ratings); task completion dates that coincide with holidays, weekends, student leave
dates, and dates not-in-trade; tasks excluded without proper approval; and the
reasonableness of time noted to complete tasks.

To determine if controls over student leave and attendance were in place, we reviewed
a stratified random statistical sample of 65 of 287 students identified as having 7 or
more days of consecutive leave prior to separation in PY 2006. We reviewed each
student file for center reported attendance and leave history, and verified this with
center documentation detailing student whereabouts and accountability including leave
approval documentation and disciplinary reports.

To determine if students reported as General Educational Development (GED)/high
school diploma completers were accurately reported, we selected a random statistical
sample of 57 of 710 students claimed as earning GED/ high school diplomas during PY
2006 and reviewed each student file for copies of diplomas, score reports and/or
transcripts.

Financial Reporting

We interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, analyzed prior audit and consultant reports, and performed a walkthrough
with select transactions to gain a better understanding of the center’s system for
financial reporting.

For non-personnel expenses, we reviewed a judgmental sample of 11 transactions
selected from a population of 18,094 transactions to determine whether the expenses
reported for reimbursement were reasonable, allocable, and supported. This included
tracing the select expenses to the general ledger and the form 2110 report.

For personnel expenses, we performed an analytical review of payroll expenditures and
judgmentally selected and reviewed 12 from a population of 513 employees to


                                                  Performance Audit Of MTC Job Corps Centers
                                           23                    Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


determine if expenditures were for actual and allowable work done by valid employees
at their authorized rates. This included tracing the select expenditures to authorized
timesheets, leave, and pay rates.

To determine if the center was in compliance with PRH requirement for reporting
reimbursable expenses we examined the monthly Form 2110 reporting reimbursable
expenses and the bi-weekly Form 1034 vouchers requesting reimbursement for
expenses from DOL. We compared reported reimbursable expenses reported on Form
2110 to requests for reimbursements made to DOL on Form 1034. In addition to
examining overall reported expenses and reimbursements we also examined all line
entries on Form 2110 by tracing them to the corresponding cost account ledger
accounting “job” code. We examined all 29 expense categories on the 2110.

Charleston

Center Safety and Health

To gain a better understanding of the center’s safety and health program, we
interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, performed walkthroughs, and conducted a physical review of the center’s
facilities. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, Safety and Occupational Health
Committee meeting minutes, and a judgmental selection of 10 daily dormitory
observation checklists from a population of 1,044 checklists for the 4 dormitories and
requested weekly and monthly safety and health inspection reports for the eleven
buildings to determine whether the center effectively identified and corrected safety and
health deficiencies.

In addition, we reviewed a judgmental selection of 10 students from a population of 958
who were reported as active during a portion of PY 2006 to determine if the center met
the PRH drug testing requirements for initial testing, follow-up drug testing, and zero
tolerance separation after the number of allowable positive tests has been exceeded.
We also evaluated the center’s process for appropriate and timely action for students
involved in disciplinary incidents. To accomplish this, we reviewed a judgmental
selection of five students from the center’s Incident History Report and traced their
separation to the center’s Separation Analysis Report.

Performance Reporting

We interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, reviewed prior audit and consultant reports, and performed walkthroughs to
gain a better understanding of the center’s system for collecting, recording, processing,
and reporting performance data. We used a combination of statistical and non-
statistical sampling to examine performance reporting.




                                                  Performance Audit Of MTC Job Corps Centers
                                           24                    Report No. 26-09-001-01-370
                                          U.S. Department of Labor – Office of Inspector General


To determine if reported vocational completers had supporting TAR documentation in
compliance with PRH requirements, we reviewed a random statistical sample of 60 out
of the 311 students reported by Charleston as vocational completers during PY 2006
and a judgmental selection of 15 students from the same population of 311 reported
vocational completers. We reviewed each student TAR for a number of attributes,
including tasks not documented as having been completed (e.g., lacked required
instructor/student sign-offs, completion dates; proficient performance ratings); task
completion dates that coincide with holidays, weekends, student leave dates and dates
not-in-trade; tasks excluded without proper approval; and the reasonableness of time
noted to complete tasks.

To determine if controls over student leave and attendance were in place, we reviewed
a stratified random statistical sample of 30 out of 76 students identified as having 7 or
more days of consecutive leave prior to separation during PY 2006. We reviewed each
student file for center reported attendance and leave history, and verified this with
center documentation detailing student whereabouts and accountability including leave
approval documentation and disciplinary reports.

To determine if students reported as GED/high school diploma completers were
accurately reported, we selected a random statistical sample of 38 of 153 students
claimed as earning GED/ high school diplomas during PY 2006 and reviewed each
student file for copies of diplomas, score reports and/or transcripts.

Financial Reporting

We interviewed key MTC and center officials and staff, reviewed applicable policies and
procedures, analyzed prior audit and consultant reports, and performed a walkthrough
with select transactions to gain a better understanding of the center’s system for
financial reporting.

For non-personnel expenses, we reviewed 25 judgmentally selected transactions from a
population of 9,821 transactions to determine whether the expenses reported for
reimbursement were reasonable, allocable, and supported. This included tracing the
select expenses to the general ledger and the form 2110 report.

For personnel expenses, we performed an analytical review of payroll expenditures and
judgmentally selected and reviewed 9 from a population of 168 employees to determine
if expenditures were for actual and allowable work done by valid employees at their
authorized rates. This included tracing the select expenditures to authorized
timesheets, leave, and pay rates.

To determine if the center was in compliance with PRH requirement for reporting
reimbursable expenses, we examined the monthly Form 2110 reporting reimbursable
expenses and the bi-weekly Form 1034 vouchers requesting reimbursement for
expenses from DOL. We then compared reported reimbursable expenses reported on
Form 2110 to requests for reimbursements made to DOL on Form 1034. In addition to


                                                  Performance Audit Of MTC Job Corps Centers
                                           25                    Report No. 26-09-001-01-370
                                           U.S. Department of Labor – Office of Inspector General


examining overall reported expenses and reimbursements, we also examined all line
entries on Form 2110 by tracing them to the corresponding cost account ledger
accounting “job” code. We examined all 29 expense categories on the 2110.

Criteria

We used the following criteria to perform this audit:

   Code of Federal Regulations,
   Federal Acquisition Regulations,
   Job Corps Policy and Requirements Handbook ,
   Gary and Charleston Job Corps Contracts and
   Standards for Internal Control in the Federal Government (U.S. Government
    Accountability Office, November 1999).




                                                   Performance Audit Of MTC Job Corps Centers
                                            26                    Report No. 26-09-001-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations

AWOL                  Absent With Out Leave

BRP                   Behavior Review Panel

Charleston            Charleston Job Corps Center

CIS                   Center Information System

DOL                   Department of Labor

FFB                   Fact Finding Board

Gary                  Gary Job Corps Center

GED                   General Educational Development

Job Corps             Office of Job Corps

MTC                   Management and Training Corporation

OIG                   Office of Inspector General

PRH                   Job Corps Policy and Requirements Handbook

PY                    Program Year

SOP                   Standard Operating Procedures

TAR                   Training Achievement Record




                                             Performance Audit Of MTC Job Corps Centers
                                      27                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
              28                    Report No. 26-09-001-01-370
                                     U.S. Department of Labor – Office of Inspector General


                                                                            Appendix D
Job Corps Response to Draft Report




                                             Performance Audit Of MTC Job Corps Centers
                                      29                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 30                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 31                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 32                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 33                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 34                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 35                    Report No. 26-09-001-01-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                     Performance Audit Of MTC Job Corps Centers
              36                    Report No. 26-09-001-01-370
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix E
MTC Response to Draft Report




                                       Performance Audit Of MTC Job Corps Centers
                                37                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 38                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 39                    Report No. 26-09-001-01-370
U.S. Department of Labor – Office of Inspector General




        Performance Audit Of MTC Job Corps Centers
 40                    Report No. 26-09-001-01-370
                                        U.S. Department of Labor – Office of Inspector General


                                                                              Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Jon K. Ling
(Audit Manager), Barry Weiss (Auditor-in-Charge), John Gruppioni, Steve Grubb and
Cory Grode.




                                                Performance Audit Of MTC Job Corps Centers
                                         41                    Report No. 26-09-001-01-370
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210

                                           Performance Audit Of MTC Job Corps Centers
                                    42                    Report No. 26-09-001-01-370
